                                                                 E-IN-BIA-0098-2002-A

             United States Department of the Interior
                             Office of Inspector General
                                  Washington, D.C. 20240

                                                                  May 21, 2003


Memorandum

To:        Assistant Secretary for Indian Affairs


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Bureau of Indian
           Affairs’ Fiscal Year 2002 Financial Statements (No. 2003-I-0053)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Indian Affairs’ (BIA) financial statements as of September 30,
2002 and for the year then ended. In conjunction with its audit, KPMG noted certain
matters involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on BIA’s financial statements (Report
No. 2003-I-0052) and do not constitute reportable conditions as defined by the American
Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.




Attachment

cc:     Assistant Secretary for Policy, Management and Budget
        Chief Financial Officer, Bureau of Indian Affairs
        Director, Office of Financial Management
        Chief, Division of Financial Management, Bureau of Indian Affairs
        Audit Liaison Officer, Bureau of Indian Affairs
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
